HHS/OIG, Audit -"Audit of the Medicaid Drug Rebate Program in North Dakota,"(A-07-03-04019)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Medicaid Drug Rebate Program in North Dakota," (A-07-03-04019)
October 8, 2003
Complete
Text of Report is available in PDF format (276 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The audit objective was to evaluate whether the North Dakota Department of Human Services (DHS) had established adequate
accountability and internal controls over the Medicaid drug rebate program. We determined the DHS had adequate controls
over the drug rebate program as required by Federal regulations except for billing and tracking $0 unit rebate amount(s)
(URAs).*  Specifically, Federal regulations require effective control over and accountability for all funds, property
and other assets.  This issue occurred because the DHS did not develop or follow adequate policies and procedures
with regard to $0 URAs.  As a result of the $0 URA issue, drug rebate receivables were perpetually understated and
the DHS may not have received all possible drug rebates due from manufacturers.
* The CMS provides the unit rebate amount (URA) information to the State agency on a quarterly computer tape.  However,
the CMS tape may contain a $0 URA if the pricing information was not provided timely, or if the computed URA has a 50 percent
variance from the previous quarter.  In instances of $0 URA's, the State agency is instructed to invoice the units
and the manufacturer is required to calculate the URA and remit the appropriate rebate to the State agency.